Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





 ASSESSING STATES’ PROGRESS 

IN MEETING STATE CHILDREN’S 

 HEALTH INSURANCE PROGRAM 

           GOALS 





                    Daniel R. Levinson

                     Inspector General 


                     September 2007

                     OEI-05-07-00330

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
Δ   E X E C U T I V E                                     S U M M A R Y


                  OBJECTIVES
                   1. To assess States’ progress in reducing the number of uninsured

                      low-income children. 


                   2. To assess States’ progress in meeting performance goals related to
                      the State Children’s Health Insurance Program (SCHIP).


                  BACKGROUND
                  The Balanced Budget Refinement Act of 1999 requires that every
                  3 years the Office of Inspector General (1) evaluate whether States are
                  enrolling Medicaid eligible children in their SCHIP programs and
                  (2) assess States’ progress in reducing the number of uninsured
                  low-income children, including their progress in meeting the strategic
                  objectives and performance goals included in State plans. This study
                  addresses the second mandate. The first mandate is addressed in a
                  separate study.

                  The Balanced Budget Act of 1997 created SCHIP to provide health
                  insurance coverage to uninsured low-income children. To receive
                  SCHIP funding, a State must submit a State plan that describes the
                  purpose, nature, and scope of its SCHIP program. States must annually
                  assess the operation of their State plans in Annual Reports. In the
                  Annual Reports, States must report their progress in reducing the
                  number of uninsured low-income children and meeting performance
                  goals.

                  To assess States’ progress in reducing the number of uninsured
                  low-income children, we analyzed the percentage change between
                  2002 and 2005 in the number of uninsured low-income children out of
                  the total population of low-income children. To assess States’ progress
                  in meeting their performance goals, we analyzed all performance goals
                  listed in States’ fiscal year (FY) 2006 Annual Reports and compared
                  progress to FY 2005.


                  FINDINGS
                  Nationally the percentage of uninsured low-income children
                  decreased between 2002 and 2005. Nationally the percentage of
                  uninsured low-income children had a statistically significant decrease
                  from 20 percent in 2002 to 18.5 percent in 2005.



OEI-05-07-00330   A S S E S S I N G S TAT E S ’ P R O G R E S S   IN   MEETING SCHIP GOALS   i
E X E C U T I V E                        S U           M M A R Y


                   However, no State had a statistically significant change in the
                   percentage of uninsured low-income children. While each State’s
                   sample showed changes in the percentage of uninsured low-income
                   children, none of the changes were significant when projected to the
                   entire State at the 90-percent confidence level. Because of small State
                   sample sizes, statistical tests are limited in accurately detecting modest
                   changes at the State-level.
                   In 2006, 37 States met or made progress in meeting at least half of
                   their performance goals. Almost half of the 37 States met or made
                   progress in meeting between 50 percent and 74 percent of their goals.
                   Of the States that reported progress, the largest number of States
                   reported progress for performance goals related to increasing access to
                   care and increasing the use of preventative care.
                   Despite improvements made by CMS to the Annual Report template,
                   States’ progress remains difficult to assess. Although the Centers for
                   Medicare & Medicaid Services (CMS) made improvements to the
                   Annual Report template, issues remain that make assessing States’
                   progress difficult. Concerns about using the U.S. Census Bureau
                   (Census) data to measure States’ progress in reducing the number of
                   uninsured low-income children continue. States and CMS cited small
                   State sample sizes as a limitation. Also, States’ use of nondirectional
                   performance goals as well as goals and measures missing from Annual
                   Reports limit the usefulness of the Annual Reports in assessing States’
                   progress in meeting performance goals.


                   RECOMMENDATIONS
                   CMS should continue efforts to address States’ Census data
                   concerns. Small State sample sizes appear to limit the usefulness of
                   State-level estimates of the percentage of uninsured children.
                   Therefore, we suggest that CMS continue departmental efforts to
                   collaborate with Census to address these concerns.
                   CMS should provide to States guidance on developing directional
                   performance goals with a target. CMS should provide States with
                   guidance and technical assistance regarding the development of specific,
                   reasonable, and targeted goals.
                   CMS should ensure that States report on all goals and measures.
                   CMS should ensure that States include all of their goals in their Annual
                   Reports. CMS should also work with States to ensure that each goal in
                   the Annual Reports includes a report of progress.

 OEI-05-07-00330   A S S E S S I N G S TAT E S ’ P R O G R E S S   IN   MEETING SCHIP GOALS   ii
E X E C U T I V E                        S U           M M A R Y 




                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS indicated general support for our findings and recommendations.
                   However, CMS took issue with the presentation of the second finding
                   and had a few comments related to the recommendations and their
                   implementation.

                   With respect to the second finding, CMS suggested that we highlight
                   State changes in the percentage of uninsured low-income children.
                   Because none of the State changes were statistically significant, we
                   opted not to highlight them in the findings. However, we do present
                   State-level data in Appendix A.

                   In regard to our first recommendation that CMS should continue efforts
                   to address States’ Census data concerns, it pointed out that it has
                   limited ability to effect a change at Census. We recognize that the
                   issues with Census data are not unique to CMS and that a Federal
                   solution is required. However, we believe that CMS can have impact
                   regarding this issue by continuing to contribute to departmental efforts
                   to collaborate with Census to address data concerns.
                   Finally, CMS expressed concern with our suggestion that States update
                   their State plans to reflect their current goals. Based on CMS’s
                   comments, we now suggest that CMS create a comprehensive list of
                   States’ current performance goals.




 OEI-05-07-00330   A S S E S S I N G S TAT E S ’ P R O G R E S S   IN   MEETING SCHIP GOALS   iii
Δ   T A B L E          O F            C O N T E N T S



         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 

                    The national percentage of uninsured decreased. . . . . . . . . . . . . . 10 


                    State-level percentages did not change . . . . . . . . . . . . . . . . . . . . . 11 


                    States are making progress in meeting performance goals . . . . . . 11 


                    States’ progress remains difficult to assess . . . . . . . . . . . . . . . . . . 13 




         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 

                    Agency Comments and Office of Inspector General Response . . . 17




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 

                    A: 	Percentage of Uninsured Low-income Children Nationally

                        and by State . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 


                    B: 	States’ Progress in Meeting Goals . . . . . . . . . . . . . . . . . . . . . . 21 


                    C: 	States’ Goals by Specificity . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23 


                    D: 	Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25 



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30 

Δ   I N T R O D U C T I O N


                  OBJECTIVES
                   1. To assess States’ progress in reducing the number of uninsured

                      low-income children. 


                   2. To assess States’ progress in meeting performance goals related to
                      the State Children’s Health Insurance Program (SCHIP).


                  BACKGROUND
                  Section 703 of the Medicare, Medicaid, and SCHIP Balanced Budget
                  Refinement Act (BBRA) of 1999 requires that every 3 years the Office of
                  Inspector General (OIG) (1) evaluate whether States are enrolling
                  Medicaid eligible children in SCHIP and (2) assess States’ progress in
                  reducing the number of uninsured low-income children, including their
                  progress in meeting the strategic objectives and performance goals
                  included in State plans.1 This study addresses the second mandate.
                  OIG is addressing the first mandate in a separate study.
                  SCHIP
                  The Balanced Budget Act of 1997 created SCHIP to provide health
                  insurance coverage to uninsured low-income children.2 The program’s
                  overall goal is to expand coverage to uninsured children in households
                  with incomes greater than States’ Medicaid eligibility but below
                  200 percent of the Federal poverty level.3 States have the option of
                  (1) instituting a separate children’s health insurance program,
                  (2) expanding Medicaid eligibility, or (3) instituting both a separate
                  SCHIP and a Medicaid expansion, known as a combination program.4
                  SCHIP funding is allocated per State using the Annual Social and
                  Economic Supplement of the U.S. Census Bureau’s Current Population
                  Survey’s (hereinafter referred to as Census) estimation of the number of
                  uninsured low-income children per State.5



                     1   Public Law 106-113 and 42 U.S.C. § 1397hh(d)(1). 

                     2   Public Law 105-133 and 42 U.S.C. §§ 1397aa et seq. 

                     3Sections 2101(a) and 2110(b) of the Social Security Act, 42 U.S.C. §§ 1397aa and 

                     1397jj(b).
                     4 Section 2101(a) of the Social Security Act, 42 U.S.C. §§ 1397aa(a), and

                     42 CFR § 457.70(a).
                     5 Section 2104(b)(2)(B) of the Social Security Act, 42 U.S.C. 1397dd(b)(2)(B), and

                     42 CFR § 457.608(e).



OEI-05-07-00330   A S S E S S I N G S TAT E S ’ P R O G R E S S   IN   MEETING SCHIP GOALS                 1
I N T R O D        U C T             I O N


                    To encourage States to implement SCHIP, the Federal match for State
                    SCHIP expenditures is greater than the Medicaid match.6 In fiscal year
                    (FY) 2007, the average Federal match for Medicaid is 59 percent, while
                    the average for SCHIP is 71 percent.7
                    SCHIP funds are due for reauthorization on September 30, 2007. In
                    FY 2006, Federal spending for SCHIP reached $5.5 billion with over
                    6.6 million children enrolled.8 The FY 2008 proposed Administration
                    budget increases SCHIP spending to nearly $30 billion over the next
                    5 years.9
                    SCHIP State Plan
                    To receive SCHIP funding, a State must submit, and the Centers for
                    Medicare & Medicaid Services (CMS) must approve, a State plan that
                    describes the purpose, nature, and scope of its SCHIP program.10 States
                    are required to amend their original State plans with any changes and
                    submit these for approval from CMS.11
                    SCHIP Annual Report
                    States must annually assess the operation of their SCHIP State plans in
                    their Annual Reports.12 Among other things, States must report their
                    progress in reducing the number of uninsured low-income children and
                    meeting State-specific performance goals (hereinafter referred to as
                    goals) in the Annual Reports.13 States must also report their progress
                    on a core set of national performance measures developed by CMS.



                       6   Section 2105(a) of the Social Security Act, 42 U.S.C. § 1397ee(a). 

                       7   70 Federal Register 71586, November 30, 2005.

                       8Kaiser Family Foundation, “Total SCHIP Expenditures, FY 2006.” Available online at 

                       http://www.statehealthfacts.org/cgibin/healthfacts.cgi?action=compare&category=categor

                       y=Medicaid+%26+SCHIP&topic=Total+SCHIP+Spending%2C+FY2006. Accessed on 

                       April 10, 2007. 

                       CMS, “FY 2006 Number of Children Ever Enrolled Year – SCHIP by Program Type.” 

                       Available online at http://www.cms.gov/NationalSCHIPPolicy/downloads/FY2006

                       StateTotalTable.pdf. Accessed on June 7, 2007. 

                       9Office of Management and Budget, “Budget of the United States Government, Fiscal 

                       Year 2008,” February 5, 2007. Available online at http://www.whitehouse.gov/

                       omb/budget/fy2008/hhs.html. Accessed on May 8, 2007. 

                       10   Section 2101(b) of the Social Security Act, 42 U.S.C. § 1397aa(b), and 42 CFR § 457.50. 

                       11Section 2107(b) of the Social Security Act, 42 U.S.C. § 1397ff(b), and 

                       42 CFR § 457.60 (2001). 

                       12   42 CFR § 457.750(a) (2001). 

                       13Section 2108(a) of the Social Security Act, 42 U.S.C. § 1397hh(a), and 

                       42 CFR § 457.750(b)(1) (2001). 




 OEI-05-07-00330    A S S E S S I N G S TAT E S ’ P R O G R E S S   IN   MEETING SCHIP GOALS                       2
I N T R O D        U C T             I O N


                    CMS annually refines the Annual Report template and recently created
                    a Web-based template system that enables States to submit their
                    Annual Reports to CMS via the Internet.14
                    Reporting progress in reducing the number of uninsured low-income
                    children. CMS inputs Census data in each State’s Annual Report to
                    assist States in reporting its progress in reducing the number of
                    uninsured. Census data are the main source of data on the uninsured
                    and have the largest sample size of any national survey with data on
                    the uninsured.

                    CMS enters 3-year averages of the number and percentage of uninsured
                    low-income children into each State’s Annual Report. In the
                    2006 Annual Reports, CMS included five overlapping 3-year averages
                    between 1996 and 2005, along with the percentage changes between
                    1996–1998 and 2003–2005.

                    According to Census, 3-year averages should be used to estimate the
                    number and percentage of uninsured low-income children at the State
                    level to improve precision.15 However, Census notes that small State
                    sample sizes can limit the usefulness of these State level estimates.

                    States may substitute an alternative source of data for Census data to
                    measure and report progress in reducing the number of uninsured
                    low-income children. If States elect to use an alternate data source,
                    States must explain their methodology and reasons for using the
                    alternative source.16
                    Reporting on State-specific performance goals. The Annual Report
                    template instructs States to report on the goals specified in their State
                    plans. States must categorize their goals into one of five strategic
                    objectives developed by CMS.17 The strategic objectives are:
                    (1) reducing the number of uninsured low-income children, (2) SCHIP


                       14 Department of Health and Human Services, “FY 2007 HHS Annual Plan, Strategic

                       Goal 3.” Available online at http://www.hhs.gov/budget/07plan/sGoal3.html#prog3e.
                       Accessed on May 8, 2007.
                       15 “Source and Accuracy of Estimates for Income, Poverty, and Health Insurance

                       Coverage in the United States: 2005.” Available online at:
                       http://www.census.gov/prod/2002pubs/p60-219sa.pdf. Accessed on May 17, 2007.
                       16   42 CFR § 457.750(c)(1)(ii) (2001).
                       17CMS, 2006 SCHIP State Annual Reports, section IIC. Available online at
                       http://www.cms.hhs.gov/NationalSCHIPPolicy/SCHIPER/itemdetail.asp?filterType=none
                       &filterByDID=0&sortByDID=1&sortOrder=descending&itemID=CMS1199208&intNumP
                       erPage=10. Accessed on July 16, 2007.



 OEI-05-07-00330    A S S E S S I N G S TAT E S ’ P R O G R E S S   IN   MEETING SCHIP GOALS               3
I N T R O D        U C T             I O N


                    enrollment, (3) Medicaid enrollment, (4) increasing access to care, and
                    (5) increasing the use of preventative care.

                    CMS requires States to report their progress in meeting each goal.18 To
                    measure progress, CMS directs States to identify their data source(s),
                    population, methodology, and baseline measurement.19 The
                    2006 Annual Report template prompts States to report progress on each
                    goal for the current year and the previous 2 years to track progress over
                    time. Prior versions of the template prompted States to report progress
                    for the current year only.

                    Reporting on CMS national performance measures. The Annual Report
                    template instructs States to report information on a core set of national
                    performance measures developed by CMS. The measures are well-child
                    visits, use of appropriate medications for children with asthma, and
                    children’s access to primary care practitioners.20 CMS contracted with
                    an evaluation agency to analyze the data reported in the States’
                    2003 SCHIP Annual Reports and to provide States with guidance to
                    improve the completeness and quality of their reporting on these
                    national performance measures. The evaluation agency issued two
                    reports in 2005 that summarize States’ reporting on these measures.21
                    Previously Mandated OIG Studies
                    In accordance with the BBRA mandate to assess States’ progress, OIG
                    has issued two prior reports related to States’ progress in reducing the
                    number of uninsured low-income children and meeting goals.22 In
                    2001, OIG could not assess States’ progress in meeting goals because of


                       18Section 2108(b)(1) of the Social Security Act, 42 U.S.C. § 1397hh(b)(1), and
                       42 CFR § 457.750(b)(1) (2001). 

                       19CMS, SCHIP State Annual Report Template. Available online at

                       http://www.cms.hhs.gov/ NationalSCHIPPolicy/ 06_SCHIPAnnual Reports.asp# Top Of

                       Page. Accessed on May 8, 2007.

                       20 42 CFR § 457.750(b)(1) and CMS, 2006 SCHIP State Annual Reports, section IIA. 


                       Available online at http://www.cms.hhs.gov/NationalSCHIPPolicy/SCHIPER/itemdetail. 

                       asp?filterType=none&filterByDID=0&sortByDID=1&sortOrder=descending&itemID=CM

                       S1199208&intNumPerPage=10. Accessed on July 16, 2007. 

                       21 “Improving Performance Measures in the State Children’s Health Insurance Program,” 


                       Mathematica Policy Research, Inc., July 18, 2005, and “Beyond Coverage: SCHIP Makes 

                       Strides Toward Providing a Usual Source of Care to Low-Income Children,” Mathematica 

                       Policy Research, Inc., December 23, 2005. 

                       22 “State Children’s Health Insurance Program: Assessment of State Evaluations

                       Reports,” OEI-05-00-00240, February 2001. 

                       “SCHIP: States’ Progress in Reducing the Number of Uninsured Children,”          

                       OEI-05-03-00280, August 2004.




 OEI-05-07-00330    A S S E S S I N G S TAT E S ’ P R O G R E S S   IN   MEETING SCHIP GOALS                4
I N T R O D        U C T             I O N


                    States’ conceptually and technically weak evaluative measures. In
                    2004, OIG found that CMS did not ensure that States reported on their
                    progress in reducing the number of uninsured children in the Annual
                    Reports and instead accepted enrollment data as a proxy for this
                    information.

                    The BBRA also requires the Government Accountability Office (GAO) to
                    monitor OIG evaluations of SCHIP.23 GAO responded favorably to the
                    findings and recommendations of OIG’s two reports with a
                    recommendation in response to OIG’s 2001 evaluation.24 The BBRA
                    mandate requires only that OIG assess States that administer SCHIP
                    separately from their Medicaid programs. To better inform Congress,
                    GAO recommended that OIG include States that administer Medicaid
                    expansion programs and Medicaid-SCHIP combination programs.25
                    OIG agreed with the recommendation and expanded subsequent
                    reviews to include all SCHIP program types.


                    METHODOLOGY
                    Scope
                    To determine States’ progress in reducing the percentage of uninsured
                    low-income children, we included all 50 States and the District of
                    Columbia. In keeping with GAO’s recommendation that we use our
                    authority to expand the scope of the evaluations to include other SCHIP
                    options, such as the Medicaid-expansion and combination programs, as
                    a way to provide Congress a more comprehensive and meaningful
                    review of State progress. We expanded our review even further to
                    include all States, regardless of whether they had a SCHIP program.
                    Thus, Tennessee is included in our review even though it did not have
                    an SCHIP program in FY 2006. All States, regardless of whether they
                    have a SCHIP program, face multiple factors affecting the number of
                    uninsured low-income children.


                       23   42 U.S.C. § 1397hh(d)(3).
                        “Children’s Health Insurance: Inspector General Reviews Should Be Expanded To
                       24

                       Further Inform the Congress,” GAO-02-512, March 29, 2002.
                       “Children’s Health Insurance: Recent HHS-OIG Reviews Inform the Congress on
                       Improper Enrollment and Reductions in Low-Income, Uninsured Children,”
                       GAO-06-457R, March 9, 2006. 

                       25 “Children’s Health Insurance: Inspector General Reviews Should Be Expanded To 


                       Further Inform the Congress,” GAO-02-512, p. 19. March 29, 2002. 





 OEI-05-07-00330    A S S E S S I N G S TAT E S ’ P R O G R E S S   IN   MEETING SCHIP GOALS                5
I N T R O D        U C T             I O N


                    To determine States’ progress in meeting and reporting on their goals,
                    we included all States that had SCHIP programs in 2006. This decision
                    reflects GAO’s recommendation to include States with all program
                    types. This includes 49 States and the District of Columbia. We did not
                    include Tennessee because it started its program in January 2007.
                    Therefore Tennessee was not required to submit a 2006 Annual Report.

                    We assessed States’ progress in reducing the percentage of uninsured
                    low-income children. We did not determine whether any change in the
                    percentage of uninsured low-income children was attributable to
                    SCHIP. Many factors, including those outside the control of a State,
                    contribute to whether a State experiences a change in the percentage of
                    uninsured low-income children.

                    We focused only on States’ goals and did not assess national
                    performance measures required by CMS because of previous
                    evaluations of these measures.
                    Data Collection
                    As part of the evaluation, we reviewed current SCHIP State plans,
                    State plan amendments, the 2006 Annual Report template, States’
                    2006 Annual Reports, and Census data. We also reviewed CMS’s
                    oversight documents, including the Annual Reports Requirement
                    checklist, the Regional Office Monitoring handbook, and the “Guide to
                    Quality Measures Compendium.” We also held discussions with CMS
                    officials about their review of goals in the State plans and Annual
                    Reports and their guidance to States regarding the development and
                    measurement of their goals.
                    Data Analysis
                    Assessing States’ progress in reducing the number of uninsured
                    low-income children. We independently obtained national and
                    State-level Census data on the number of uninsured low-income
                    children.26 We calculated four 3-year averages from 2000 to 2005
                    (2000-2002, 2001-2003, 2002-2004, and 2003-2005).

                    To assess change, we compared the first 3-year average, 2000–2002
                    (hereinafter referred to as 2002) and the last 3-year average, 2003–2005
                    (hereinafter referred to as 2005) to assess progress in reducing the


                       26We define the “percentage of uninsured low-income children” as the number of
                       uninsured children among the population of low-income children, not among the
                       population of all children as Census defines it.



 OEI-05-07-00330    A S S E S S I N G S TAT E S ’ P R O G R E S S   IN   MEETING SCHIP GOALS            6
I N T R O D        U C T             I O N


                    number of uninsured low-income children. We assessed whether
                    changes were statistically significant at the 90-percent confidence
                    level.27
                    Our analysis starts with 2000 Census data. We started with
                    2000 rather than the beginning of SCHIP in 1997 because starting in
                    the 2000 Census survey a “verification” question that improved
                    estimates of the uninsured was included.28 It asks individuals that
                    responded “no” to all questions about specific types of health insurance
                    coverage to verify whether they were actually uninsured.29 Accordingly,
                    estimates based on the revised Census data are not directly comparable
                    with estimates from earlier years.

                    We analyzed whether States made progress in reducing the number of
                    uninsured low-income children by determining the percentage change in
                    the number of uninsured low-income children out of the total population
                    of low-income children.

                    Assessing States’ progress in meeting goals. We reviewed whether
                    States made progress in meeting their goals in FY 2006 as compared
                    with FY 2005 as reported in their 2006 Annual Reports. We identified a
                    total of 555 goals listed in either State plans or Annual Reports.
                    However, only 368 goals were in the Annual Reports, and 20 of these
                    were marked discontinued. Therefore, our analysis included
                    348 continuing goals listed in States’ Annual Reports.

                    We measured progress in relation to each goal’s specificity. We
                    categorized goals into three types. We defined “directional goals with a
                    target” as goals that had a defined benchmark (i.e., increase SCHIP
                    enrollment by 5 percent). We defined “directional goals without a
                    target” as goals that stated a general direction (i.e., increase access to
                    primary care physicians). Lastly, we defined “nondirectional” goals as
                    goals that lacked direction and a finite target (i.e., immunizations).
                    These goals were typically not quantifiable.


                       27 Census analyzes its data at the 90-percent confidence level. U.S. Census Bureau,

                       “Source and Accuracy of Estimates for Income, Poverty, and Health Insurance Coverage
                       in the United States: 2005.” Available online at:
                       http://www.census.gov/prod/2002pubs/p60-219sa.pdf. Accessed on May 17, 2007.
                       28U.S. Census Bureau, “The March CPS Health Insurance Verification Question and Its
                       Effect on Estimates of the Uninsured.” Available online at
                       http://www.census.gov/hhes/www/hlthins/verif.html. Accessed on April 12, 2007.
                       29 U.S. Census Bureau, Current Population Reports, “Health Insurance Coverage: 2000,”

                       September 2001.



 OEI-05-07-00330    A S S E S S I N G S TAT E S ’ P R O G R E S S   IN   MEETING SCHIP GOALS                   7
I N T R O D            U C T              I O N


                         Based on the States’ report of progress, we coded goals as “met,”
                         “making progress,” or “not making progress.” See Table 1 for the
                         criteria we used to assess States’ progress in meeting their goals.

        Table 1: Criteria to Assess States’ Progress in Meeting Their Goals
                                                                                             Progress
            Type of Goal                                        Met                          Making Progress           Not Making Progress
        Directional Goal With a            State reached the target.                 State was at least half of        State was below the
        Target                                                                       the way to achieving the               halfway mark to
                                                                                                        target.        achieving the target.
        Directional Goal                            Trend of the data                 State maintained status     Trend of the data moved
        Without a Target                            matched the goal                      from previous year.      in opposition to the goal
                                                            direction.                                                             direction.
        Nondirectional Goal                      Task was completed.                      State attempted the     State did not attempt the
                                                                                                        task.                           task.
        Source: OIG Analysis of States’ 2006 Annual Reports, 2007.


                         We also analyzed States’ progress in meeting goals by the strategic
                         objective categories developed by CMS.

                         Assessing States’ reporting of goals. We conducted two levels of review to
                         assess States’ reporting of goals. First, we assessed whether each goal
                         listed in a State plan was in the Annual Report. For each goal listed in
                         a State plan but not in the Annual Report, we determined whether the
                         goal was outdated. We considered any goal with a completion date
                         earlier than 2006 to be outdated.

                         Second, for the 368 goals included in the Annual Report, we assessed
                         whether a State reported on its progress anywhere in the Annual
                         Report. If a State did not include a report of progress, we analyzed the
                         reasons that a State provided for not reporting. We coded the reasons
                         the State provided as one of three categories: (1) the State discontinued
                         the goal, (2) the State indicated a lack of sufficient data to analyze the
                         goal, or (3) the State did not provide a reason for not reporting progress.
                         Limitations
                         Census may undercount Medicaid recipients which may affect estimates
                         of the number of uninsured low-income children. In 2005, Census
                         estimated 21.3 million Medicaid recipients, while CMS data indicated
                         28.2 million recipients.30 The Urban Institute developed the Transfer
                         Income Model which adjusts for this undercounting. However, Urban
                         Institute officials stated that Medicaid recipients may be incorrectly



                             U.S. Census Bureau, Current Population Survey, CENSUS, 2005, and Centers for
                            30

                            Medicare & Medicaid Services, “2005 CMS Statistics,” 2005.



 OEI-05-07-00330         A S S E S S I N G S TAT E S ’ P R O G R E S S   IN   MEETING SCHIP GOALS                                               8
I N T R O D        U C T             I O N


                    reporting that they have employer-based or private insurance instead of
                    Medicaid. This error would affect the underestimation of Medicaid
                    recipients but may not affect the estimate of the number of uninsured.

                    We determined that Census data was adequate for our study because
                    we are assessing change in the uninsured population, rather than
                    assessing change in the number of Medicaid recipients. We
                    acknowledge that Census data may overestimate the number of
                    uninsured as a by-product of the underestimate of Medicaid recipients.

                    We did not independently verify the information reported by States
                    regarding their goals.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-05-07-00330    A S S E S S I N G S TAT E S ’ P R O G R E S S   IN   MEETING SCHIP GOALS   9
                         F                    I N D I N G       S
  Δ                                                 F I N D I N G S

   Nationally the percentage of uninsured                                                 Nationally the percentage of uninsured
 low-income children decreased between                                                    low-income children had a statistically
                                                                                          significant decrease between 2002 and
                           2002 and 2005
                                                                                          2005. In 2005, 18.5 percent of low-income
                                                               children were uninsured nationally, down from 20 percent in 2002.

                                                               See Graph 1 for national estimates of the percentage of uninsured
                                                               low-income children annually from 2000 to 2005 and 3-year averages
                                                               between 2002 and 2005.

Graph 1: National Percentage of Uninsured Low-Income Children From 2000 to 2005




                                            25.0%




                                            23.0%
    Percent Uninsured Low-Income Children




                                            21.0%




                                            19.0%




                                            17.0%




                                            15.0%
                                                       2000          2001                        2002                     2003              2004   2005
                                                                                                                Year

                                                                                             Annual Estimates              3-Year Average

Source: OIG Analysis of Census data, 2007.




                                                               The national percentage of uninsured low-income children decreased
                                                               during the same time that both SCHIP and Medicaid enrollment of




                                             OEI-05-07-00330   A S S E S S I N G S TAT E S ’ P R O G R E S S   IN   MEETING SCHIP GOALS                   10
F   I N D I N G        S


                      children increased. SCHIP enrollment increased by 15 percent31 and
                      Medicaid increased enrollment by 18 percent,32 between 2002 and 2005.



        However, no State had a statistically significant           Although the national
               change in the percentage of uninsured                percentage of uninsured
                                                                    low-income children
                                  low-income children
                                                                    decreased, no State
                      experienced a statistically significant change in the percentage of
                      uninsured low-income children between 2002 and 2005.

                      While each State’s sample showed changes in the percentage of
                      uninsured low-income children, none of the changes were significant
                      when projected to the entire State at the 90-percent confidence level.
                      Because of small State sample sizes, statistical tests are limited in
                      accurately detecting modest changes at the State-level. See Appendix A
                      for the percentage of uninsured low-income children by State in 2002
                      and 2005.

                      Many factors contribute to whether a State experiences a change in the
                      percentage of uninsured low-income children. For instance, SCHIP and
                      Medicaid enrollment, State and national economic climates, shifts in
                      low-income populations, and private insurance rates all contribute to
                      changes in a State’s percentage of uninsured low-income children.



    In 2006, 37 States met or made progress in                 Thirty-seven States met or made
meeting at least half of their performance goals               progress in meeting at least half
                                                               of their goals. Almost half of
                                                               these 37 States met or made
                      progress in meeting between 50 percent and 74 percent of their goals.
                      In general, States varied on the number of goals they had, ranging from
                      1 to 25 goals. In total, States had an average of seven goals.



                         31 CMS, "SCHIP Enrollment Reports: FY 2002 and 2005 Annual Enrollment Reports."

                         Available online at: http://www.cms.hhs.gov/NationalSCHIPPolicy/SCHIPER /list.asp#
                         TopOfPage. Accessed on June 25, 2007.
                         32 CMS, "Fiscal Year 2002 National MSIS Tables." Available online at:

                         http://www.cms.hhs.gov/MedicaidDataSourcesGenInfo/Downloads/MSISTables2002.pdf.
                         Accessed on June 25, 2007. CMS, "2005 CMS Statistics." Available online at:
                         http://www.cms.hhs.gov/CapMarketUpdates/Downloads/2005CMSStats.pdf. Accessed on
                         June 25, 2007.



    OEI-05-07-00330   A S S E S S I N G S TAT E S ’ P R O G R E S S   IN   MEETING SCHIP GOALS                11
F   I N D I N G 
S


                      Only six States met or made progress toward all of their goals. One of
                      these States had only one goal and another State had three goals. The
                      remaining four States had four to six goals each.

                      Four States did not meet or make progress on any of their goals. Of
                      these States, two States had only one goal each and the other two States
                      had three goals each. See Table 2 for a breakout of States by the
                      percentage of goals that were classified as met or making progress.

                               Table 2: Number of States by the Percentage and Number of Goals
                               Classified as Met or Making Progress
                               Percentage of Goals Classified                                            Average Number of Goals
                               as Met or Making Progress                              Number of States        per State by Quartile
                               100%                                                                  6                            4
                               ≥ 75% and < 100%                                                    14                            8
                               ≥ 50% and < 75%                                                     17                            8
                               ≥ 25% and < 50%                                                      8                            8
                               ≥ 1% and < 25%                                                       1                            7
                               0%                                                                   4                            2
                                  Total                                                            50
                            Source: OIG Analysis of States’ 2006 Annual Reports, 2007.


                      See Appendix B for each State’s progress towards meeting its goals.
                      States made progress in meeting goals in all strategic objective categories
                      Of the States that reported progress, the largest number of States
                      reported progress for goals related to increasing access to care and
                      increasing the use of preventative care. Thirty-one States met or made
                      progress in meeting at least half their goals related to increasing access
                      to care. Of these 31 States, 19 met all goals related to increasing access
                      to care. In addition, 28 States met or made progress in meeting half the
                      goals related to increasing the use of preventative care, with 18 States
                      meeting all of their goals related to increasing the use of preventative
                      care.

                      States with goals related to SCHIP enrollment also experienced
                      progress. Twenty-five States met or made progress in meeting at least
                      half of their goals related to SCHIP enrollment. Of these 25 States,
                      18 States met all of their goals related to SCHIP enrollment.

                      States made less progress meeting goals related to reducing the number
                      of uninsured low-income children. While 24 States met or made
                      progress in meeting at least half their goals related to reducing the
                      number of uninsured low-income children, 17 States did not meet half of


    OEI-05-07-00330   A S S E S S I N G S TAT E S ’ P R O G R E S S   IN   MEETING SCHIP GOALS                                  12
F     I N D I N G                S


                               their goals. Of these 17 States, 16 did not meet any goals related to
                               reducing the number of uninsured low-income children.

                               Seven States met or made progress in meeting at least half their goals
                               that did not fit into any strategic objective. These goals concerned
                               either enrollee satisfaction with the State’s SCHIP program or SCHIP
                               outreach.

                               See Table 3 for the number of goals in each strategic objective category
                               for each State and the percentage of these goals that were classified as
                               met or making progress.

    Table 3: Number of States by the Percentage of Goals Classified as Met or Making
    Progress by Strategic Objective Category
                                                                                                States’ Average
                                                               Number of States                Number of Goals         Number of States by the
                                                               That Reported at                    Per Strategic   Percent That Made Progress
    Strategic Objective                                         Least One Goal                        Objective                  or Met Goals
                                                                                                                           0–49        50–100
                                                                                                                        Percent       Percent
    Increasing access to care                                                           41                    2              10             31
    Increasing use of preventative care                                                 35                    3               7             28
    SCHIP enrollment                                                                    33                    2               8             25
    Reducing the number of uninsured                                                    41                    2              17             24
    low-income children
    Medicaid enrollment                                                                 20                    1              9             11
    Other                                                                               10                    1              3              7
    Source: OIG Analysis of States’ 2006 Annual Reports, 2007.



                                                                           OIG’s previous SCHIP
               Despite improvements made by CMS to the
                                                                           reviews reported significant
                Annual Report template, States’ progress                   difficulties using the Annual
                              remains difficult to assess                  Reports to assess States’
                                                                           progress in reducing the
                               uninsured and meeting goals. In 2001, OIG could not assess States’
                               progress in meeting goals because of States’ conceptually and
                               technically weak evaluative measures. OIG recommended that CMS
                               develop a framework for the Annual Reports and provide guidance to
                               States in conducting useful evaluations of their program. 33 Since then,
                               CMS created the Annual Report template and annually reevaluates this
                               template. Also, CMS developed a compendium of quality measures to
                               provide States with various approaches to measuring data for CMS’s
                               national performance measures.



                                  33 “State Children’s Health Insurance Program: Assessment of State Evaluations

                                  Reports,” OEI-05-00-00240, p. 15. February 2001.



     OEI-05-07-00330           A S S E S S I N G S TAT E S ’ P R O G R E S S   IN   MEETING SCHIP GOALS                                    13
F   I N D I N G 
S


                      In 2004, OIG found that CMS did not ensure that States report their
                      progress in reducing the number of uninsured low-income children and
                      instead accepted enrollment data as a proxy in their Annual Reports.34
                      Since then, CMS automatically enters Census data on the number and
                      percentage of uninsured low-income children into States’ Annual
                      Reports.

                      Although CMS has improved the Annual Report template and started
                      measuring rates of uninsured, issues that make it difficult to measure
                      States’ progress remain. There continue to be concerns about using
                      Census data to measure States’ progress in reducing the number of
                      uninsured low-income children. Also, States’ use of nondirectional goals
                      as well as goals and measures missing from Annual Reports limit the
                      usefulness of the Annual Reports in assessing States’ progress in
                      meeting goals.
                      Concerns with using Census data for State-level assessments persist
                      States continue to report concerns with the use of Census data to
                      measure their progress in reducing the uninsured in their Annual
                      Reports. In 2002, 11 States reported limitations to Census data.35 In
                      2006, 20 States reported limitations. Despite the increased sample size
                      of the Census survey in 2002, the most common limitation cited by
                      States in their 2006 Annual Reports was small State sample sizes.
                      States also cited the undercounting of Medicaid recipients and the use
                      of income thresholds that may differ from States’ specific SCHIP
                      eligibility criteria as limitations to Census data.

                      CMS staff also expressed concern with Census data. CMS staff shared
                      State concerns regarding the small State sample sizes and the
                      undercounting of Medicaid recipients. CMS staff also expressed concern
                      that Census data includes non-U.S. citizens, who would not be eligible
                      for SCHIP.

                      Despite 20 States reporting concerns with Census data in 2006, only
                      6 of these States used an alternative data source to report their progress
                      in reducing the uninsured. In total, 10 States used alternative data
                      sources to report their progress in reducing the number of uninsured
                      low-income children in 2006. Nine of these States used State surveys



                         34 “SCHIP: States’ Progress in Reducing the Number of Uninsured Children,” 


                         OEI-05-03-00280, p. 12. August 2004. 

                         35   Ibid, p. 13. 




    OEI-05-07-00330   A S S E S S I N G S TAT E S ’ P R O G R E S S   IN   MEETING SCHIP GOALS          14
F   I N D I N G 
S


                      and one State used the Center for Disease Control’s Behavioral Risk
                      Factor survey.
                      It is more difficult to assess progress of States with nondirectional goals
                      Across all States, one-third of goals were nondirectional and not
                      quantifiable. Ten States had a majority of nondirectional goals.
                      Thirty-three States had at least one nondirectional goal. See
                      Appendix C for a complete list of States’ goals by their level of
                      specificity.

                      Nondirectional goals do not provide a desired direction of change nor are
                      they quantifiable. Given these characteristics, it is hard to ascertain
                      what constitutes progress for nondirectional goals. For instance, if a
                      State’s nondirectional goal was “monitor utilization of specialty care”
                      the State would have met the goal if it mentioned a monitoring system.
                      In contrast, directional goals with targets have clear criteria by which to
                      assess progress. For instance, if a State’s goal is “increase well-child
                      visits annually by 5 percent” it is clear that only a 5-percent increase
                      constitutes meeting the goal.

                      Because of the nature of the State-Federal SCHIP partnership, States
                      have the discretion to develop goals that are nondirectional and not
                      quantifiable. CMS does not dictate or provide written guidance
                      concerning the content, quality, or specificity of States’ goals.
                      States failed to report on all goals listed in their State plan
                      Only seven States reported on all goals from their State plans in their
                      2006 Annual Reports as required. Twenty-nine States included at least
                      half of the goals from their State plan. Three States did not report on
                      any goals from their State plans.

                      Twenty-eight percent of all goals from States’ plans that were not
                      included in the 2006 Annual Reports were outdated. Thus, States’
                      failure to report on 72 percent of goals from their State plans was not
                      due to the goals being outdated. In addition, 32 States included in their
                      Annual Reports new goals that were not listed in their State plans.
                      States did not provide reports of progress for all goals in the Annual
                      Reports
                      Not all goals included in States’ Annual Reports included information
                      on States’ progress as required. Fourteen States did not report any
                      information for at least one goal in their Annual Reports. Of these
                      14 States, 11 reported that data were not available for these goals.



    OEI-05-07-00330   A S S E S S I N G S TAT E S ’ P R O G R E S S   IN   MEETING SCHIP GOALS   15
Δ   R E C O M M E N D A T I O N S

                  The national percentage of uninsured low-income children experienced
                  a statistically significant decrease between 2002 and 2005. In addition,
                  37 States met or made progress in meeting at least half of their goals.
                  However, measuring States’ progress remains difficult because of
                  Census data concerns and nondirectional goals, as well as goals and
                  measures missing from Annual Reports. Therefore, we recommend the
                  following:
                  CMS should continue efforts to address States’ Census data concerns
                  States continue to report limitations to using Census data for
                  State-level estimations of the change in the number and percentage of
                  uninsured low-income children. These State-level estimates are
                  important because they are used not only to assess States’ progress in
                  reducing the number of uninsured, but they are also used when
                  allocating SCHIP funding.

                  The most commonly cited limitation was small State sample sizes. Our
                  analysis also revealed that, because of small State sample sizes,
                  statistical tests may not be able to accurately detect modest changes in
                  a State’s percentage of uninsured low-income children. Therefore, we
                  suggest that CMS continue departmental efforts to collaborate with
                  Census officials to address these concerns. Possible solutions include
                  increasing State sample sizes or pursuing alternative methodologies,
                  such as small-area estimations.

                  In addition to small State sample sizes, CMS and States reported the
                  undercounting of Medicaid recipients by the Census, the concern that
                  Census data include non-U.S. citizens, and the use of income thresholds
                  that may differ from States’ specific SCHIP eligibility criteria. We
                  suggest that CMS explore the appropriateness of using adjusted Census
                  estimates in the Annual Reports. Microsimulation models have been
                  developed that adjust Census estimates to address these limitations.

                  We also suggest that CMS work with States that reported limitations to
                  Census data but did not utilize an alternative data source to identify
                  alternative data sources or methodologies for reporting the percentage
                  change in uninsured low-income children.
                  CMS should provide to States guidance on developing directional
                  performance goals with a target
                  One-third of States’ 2006 goals were nondirectional. These goals did not
                  provide a desired direction of change nor were they quantifiable. Given
                  these characteristics, it is hard to ascertain what constitutes progress
                  for nondirectional goals. To address this, CMS should provide States

OEI-05-07-00330   A S S E S S I N G S TAT E S ’ P R O G R E S S   IN   MEETING SCHIP GOALS   16
R   E C O        M M E N D A T                         I O N                S


                      with guidance and technical assistance regarding the development of
                      specific, reasonable, and targeted goals.
                      CMS should ensure that States report on all goals and measures
                      The Annual Report is the tool by which CMS assesses States’ progress
                      in meeting their performance goals. CMS has been successful in
                      ensuring that all States submit their Annual Reports. However, in
                      their Annual Reports, States failed to report on all goals listed in their
                      State plans and not all goals included in the Annual Reports had
                      information on States’ progress.

                      To ensure that Annual Reports reflect progress on goals States
                      committed to achieving for the current year, we suggest that CMS
                      create and maintain a comprehensive list of States’ current goals. This
                      list should begin with goals listed in States’ plans and be updated with
                      goals that were added or discontinued in previous Annual Reports, and
                      updated annually thereafter.

                      States can choose to discontinue a goal from their State plan or Annual
                      Report. We suggest that CMS change the Annual Report template to
                      require that States provide an explanation when a goal is marked
                      discontinued.
                      Fourteen States did not report any information for at least one goal in
                      their Annual Reports. This was largely a result of States reporting that
                      data were not available. To help ensure that States annually report
                      progress on all goals, we suggest that CMS work with States that have
                      difficulty reporting on all of their goals. CMS has already provided a
                      compendium of measures which outlines various approaches to
                      measuring different goals. CMS could use this compendium to work
                      with States to select meaningful measures. CMS could also facilitate
                      interaction between States that are having difficulty measuring
                      progress and States that have been successful in measuring progress.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      CMS indicated general support for our findings and recommendations.
                      However, CMS took issue with the presentation of the second finding
                      and had a few comments related to the recommendations and their
                      implementation.

                      With respect to the second finding, CMS suggested that we highlight
                      State changes in the percentage of uninsured low-income children.

    OEI-05-07-00330   A S S E S S I N G S TAT E S ’ P R O G R E S S   IN   MEETING SCHIP GOALS   17
R   E C O        M M E N D A T                         I O N                S


                      Because none of the State changes were statistically significant, we
                      opted not to highlight them in the findings. However, we do present
                      State-level data in Appendix A.

                      In regard to our first recommendation that CMS should continue efforts
                      to address States’ Census data concerns, CMS pointed out that it has
                      limited ability to effect a change at Census. It also stated that a
                      solution across Federal agencies is needed. On the other hand, CMS
                      indicated a willingness to continue to work with the Census to convey
                      States’ concerns. We recognize that the issues with Census data are not
                      unique to CMS and that a Federal solution is required. However, we
                      believe that CMS can have impact regarding this issue by continuing to
                      contribute to departmental efforts to collaborate with Census to address
                      data concerns.

                      Finally, CMS expressed concern with our suggestion that States update
                      their State plans to reflect their current goals. CMS indicated that
                      State plans only need to be updated for reasons outlined in
                      42 CFR § 457.60, which does not include changes to performance goals.
                      However, to assess States’ progress using the Annual Report, it is
                      necessary to know what goals States have committed to assess. We
                      used the goals listed in the State plans because the mandate directs us
                      to, and because CMS does not maintain a comprehensive list of States’
                      current goals. Based on CMS’s comments, we now suggest that CMS
                      create a comprehensive list of States’ current performance goals.

                      For the full text of CMS’s comments, see Appendix D.




    OEI-05-07-00330   A S S E S S I N G S TAT E S ’ P R O G R E S S   IN   MEETING SCHIP GOALS   18
A   P    P E N D           I X            ~           A            




                           PERCENTAGE OF UNINSURED LOW-INCOME CHILDREN
                           NATIONALLY AND BY STATE

    Table 4: Percentage of Uninsured Low-Income in 2005 and 2002
                                     Current
                                    Program                   2005
    State                                                                         2002          Difference Between 2005 and 2002
                                       Type*
                                                                                          Percentage
                                                                                                    †
                                                                                          Difference            Confidence Intervals
                                                                                                               Lower          Upper
                                                                                         (2005–2002)
                                                                                                           90 Percent    90 Percent
                                                                                                       ‡
    United States                             N/A           18.5%                20.0%         -1.5%           -2.6%          -0.5%
    Alabama                         Separate                  9.7%               15.9%         -6.1%          -12.3%           0.0%
    Alaska                        Expansion                 14.7%                19.7%         -5.0%          -12.9%           3.0%
    Arizona                         Separate                24.6%                26.4%         -1.8%          -10.9%           7.3%
    Arkansas                  Combination                   10.9%                15.7%         -4.8%          -11.0%           1.4%
    California                Combination                   19.9%                22.9%         -3.0%           -6.7%           0.7%
    Colorado                        Separate                27.7%                27.5%          0.2%          -10.6%          10.9%
    Connecticut                     Separate                17.4%                16.0%          1.3%           -8.2%          10.8%
    Delaware                  Combination                   19.1%                14.0%          5.1%           -4.8%          15.0%
    District of Columbia          Expansion                 11.3%                11.5%         -0.2%           -8.1%           7.7%
    Florida                   Combination                   25.7%                25.6%          0.1%           -5.7%           5.8%
    Georgia                         Separate                19.7%                19.5%          0.2%           -7.1%           7.6%
    Hawaii                        Expansion                   8.7%               12.4%         -3.7%           -9.7%           2.3%
    Idaho                     Combination                   16.7%                21.2%         -4.5%          -12.2%           3.1%
    Illinois                  Combination                   18.7%                19.8%         -1.1%           -6.8%           4.5%
    Indiana                   Combination                   14.8%                19.5%         -4.7%          -11.7%           2.3%
    Iowa                      Combination                   14.0%                12.8%          1.2%           -6.3%           8.7%
    Kansas                          Separate                13.1%                16.7%         -3.7%          -11.2%           3.9%
    Kentucky                  Combination                   15.0%                16.1%         -1.0%           -8.2%           6.1%
    Louisiana                     Expansion                 15.3%                19.5%         -4.2%          -11.5%           3.1%
    Maine                     Combination                   10.1%                11.5%         -1.4%           -8.3%           5.4%
    Maryland                  Combination                   17.5%                18.6%         -1.1%          -10.4%           8.2%
    Massachusetts             Combination                   11.6%                 8.7%          2.9%           -3.2%           9.0%
    Michigan                  Combination                     9.1%               12.6%         -3.5%           -8.0%           1.0%
    Minnesota                     Expansion                 14.7%                13.2%          1.4%           -7.0%           9.8%
    Mississippi                     Separate                17.1%                14.1%          3.0%           -4.0%           9.9%
    Missouri                      Expansion                 13.4%                 9.5%          3.9%           -2.6%          10.3%
    Montana                         Separate                22.9%                19.8%          3.1%           -6.8%          12.9%




    OEI-05-07-00330        A S S E S S I N G S TAT E S ’ P R O G R E S S   IN   MEETING SCHIP GOALS                                    19
A     P     P E N D           I X ~             A            





    Table 4: Percent of Uninsured Low-Income Children in 2005 and 2002 (Continued)
                                         Current
    State                               Program                      2005                2002         Difference Between 2005 and 2002
                                           Type*
                                                                                                Percentage
                                                                                                          †
                                                                                                Difference         Confidence Intervals
                                                                                                                  Lower          Upper
                                                                                                (2005–2002)
                                                                                                              90 Percent    90 Percent
    Nebraska                          Expansion                   12.6%                 11.6%          0.9%        -6.5%          8.4%
    Nevada                              Separate                  25.6%                 28.8%         -3.2%      -13.1%           6.7%
    New Hampshire                  Combination                    10.6%                 13.2%         -2.6%      -11.9%           6.7%
    New Jersey                     Combination                    22.7%                 21.2%          1.6%        -7.0%         10.1%
    New Mexico                        Expansion                   22.4%                 21.8%          0.6%        -8.1%          9.3%
    New York                            Separate                  12.6%                 14.6%         -2.0%        -5.6%          1.6%
    North Carolina                 Combination                    18.7%                 18.5%          0.2%        -5.9%          6.4%
    North Dakota                   Combination                    18.2%                 14.5%          3.6%        -5.4%         12.7%
    Ohio                              Expansion                   14.7%                 16.3%         -1.6%        -7.1%          3.9%
    Oklahoma                          Expansion                   21.2%                 22.6%         -1.4%        -9.9%          7.2%
    Oregon                              Separate                  17.2%                 19.7%         -2.5%      -11.1%           6.1%
    Pennsylvania                        Separate                  16.6%                 16.6%          0.1%        -5.4%          5.5%
    Rhode Island                   Combination                    10.8%                  9.2%          1.5%       -5.6%           8.7%
    South Carolina                    Expansion                   14.3%                 12.5%          1.8%        -4.9%          8.6%
    South Dakota                   Combination                    12.3%                 13.6%         -1.3%        -8.4%          5.8%
    Tennessee                                    N/A              16.5%                 10.4%          6.1%        -0.6%         12.9%
    Texas                               Separate                  28.6%                 33.8%         -5.2%      -10.5%           0.1%
    Utah                                Separate                  18.1%                 17.8%          0.2%        -7.6%          8.0%
    Vermont                             Separate                    7.3%                 6.8%          0.5%        -5.2%          6.2%
    Virginia                       Combination                    15.7%                 18.8%         -3.1%      -11.3%           5.1%
    Washington                          Separate                  12.7%                 15.7%         -3.0%      -10.1%           4.1%
    West Virginia                       Separate                  10.7%                 14.2%         -3.5%        -9.8%          2.8%
    Wisconsin                     Combination                     12.4%                  8.7%          3.7%       -2.3%           9.7%
    Wyoming                             Separate                  14.6%                 22.9%         -8.3%      -19.5%           3.0%
    Source: Office of Inspector General (OIG) Analysis of Annual Social and Economic Supplement of the U.S. Census Bureau’s
    Current Population Survey (Census) data, 2007.

    * Combined = Combined Medicaid and SCHIP program, Expansion = Medicaid Expansion program, Separate= Separate SCHIP
    program
    †
      Figures have been rounded to the nearest tenth.
    ‡
      Statistically significant at the 90-percent confidence level.




     OEI-05-07-00330            A S S E S S I N G S TAT E S ’ P R O G R E S S   IN   MEETING SCHIP GOALS                                  20
Δ     A P P E N D I X ~ B
                        C



                           STATES’ PROGRESS IN MEETING GOALS 



    Table 5: Number of Goals by States’ Progress
                                                                      Progress of Goal

                                                                                                           Progress
                                                                                                        Unreported/       Total
                                                                  Making              Not Making      Data Does Not   Number of
    State                                     Met                Progress              Progress       Measure Goal       Goals
    Alabama                                      6                              3             2                  1           12
    Alaska                                       2                              2             0                  0           4
    Arizona                                      1                              5             0                  0           6
    Arkansas                                     1                              2             0                  2           5
    California                                   5                              1             0                  6          12
    Colorado                                     0                              0             3                  0           3
    Connecticut                                  2                              1             4                  3          10
    Delaware                                     0                              0             1                  0           1
    District of Columbia                         4                              0             0                  0           4
    Florida                                      1                              0             5                  1           7
    Georgia                                      6                              1             1                  0           8
    Hawaii                                       2                              3             2                  2           9
    Idaho                                        1                              3             3                  0           7
    Illinois                                     2                              0             0                  6           8
    Indiana                                      1                              3             0                  2           6
    Iowa                                         7                              1             1                  0           9
    Kansas                                       0                              2             1                  1           4
    Kentucky                                     2                              2             1                  2           7
    Louisiana                                    1                              0             2                  0           3
    Maine                                        4                              0             1                  0           5
    Maryland                                     0                              2             1                  2           5
    Massachusetts                                5                              0             1                  1           7
    Michigan                                     7                              0             1                  3          11
    Minnesota                                    3                              0             0                  1           4
    Mississippi                                  7                              1             1                  1          10
    Missouri                                     0                              0             3                  0           3
    Montana                                      4                              1             0                  1           6
    Nebraska                                     5                              5             1                  1          12
    Nevada                                       1                              1             4                  1           7
    New Hampshire                                2                              1             1                  1           5
    New Jersey                                 12                               6             3                  4          25
    New Mexico                                   1                              0             2                  1           4
    New York                                     2                              1             0                  0           3
    North Carolina                               4                              0             1                  1           6
    North Dakota                                 2                              4             4                  5          15




OEI-05-07-00330            A S S E S S I N G S TAT E S ’ P R O G R E S S   IN   MEETING SCHIP GOALS                               21
A   P    P E N D            I X ~            B            





      Table 5: Number of Goals by States’ Progress (Continued)
                                                                         Progress of Goal

                                                                                                              Progress
                                                                                                        Unreported/ Data       Total
                                                                    Making               Not Making           Does Not     Number of
      State                                     Met                Progress               Progress        Measure Goal        Goals
      Ohio                                         2                              3              0                    0           5
      Oklahoma                                     1                              1              0                    1           3
      Oregon                                       2                              1              0                    5           8
      Pennsylvania                                 7                              2              1                    0          10
      Rhode Island                                 1                              0              0                    0           1
      South Carolina                               5                              0              0                    2           7
      South Dakota                                 5                              1              3                    0           9
      Texas                                        4                              1              1                    0           6
      Utah                                         1                              5              1                    1           8
      Vermont                                      0                              0              0                    1           1
      Virginia                                     3                              2              3                    0           8
      Washington                                   1                              3              0                    1           5
      West Virginia                                3                              2              0                    1           6
      Wisconsin                                    0                              6              3                    0           9
      Wyoming                                      5                              3              1                    0           9
      Source: OIG Analysis of States’ 2006 Annual Reports, 2007.




    OEI-05-07-00330          A S S E S S I N G S TAT E S ’ P R O G R E S S   IN   MEETING SCHIP GOALS                                  22
A   P   P E N D           I X ~             C
Δ       A AP PP PE EN ND DI IX X~ ~C D


                            STATE GOALS BY SPECIFICITY 


            Table 6: Number of Goals by Specificity per State



                                                                                           Type of Goal

            State                             Total                Directional               Directional      Nondirectional
                                           Number              Without Target                With Target
                                           of Goals
            Alabama                             12                                   5                    3               4
            Alaska                                      4                            1                    0               3
            Arizona                                     6                            0                    6               0
            Arkansas                                    5                            1                    0               4
            California                                12                             8                    0               4
            Colorado                                    3                            3                    0               0
            Connecticut                               10                             6                    0               4
            Delaware                                    1                            1                    0               0
            District of Columbia                        4                            0                    0               4
            Florida                                     7                            7                    0               0
            Georgia                                     8                            3                    1               4
            Hawaii                                      9                            4                    0               5
            Idaho                                       7                            0                    7               0
            Illinois                                    8                            4                    2               2
            Indiana                                     6                            0                    6               0
            Iowa                                        9                            3                    6               0
            Kansas                                      4                            0                    3               1
            Kentucky                                    7                            2                    5               0
            Louisiana                                   3                            1                    2               0
            Maine                                       5                            3                    0               2
            Maryland                                    5                            4                    0               1
            Massachusetts                               7                            2                    2               3
            Michigan                                  11                             0                    1              10
            Minnesota                                   4                            1                    0               3
            Mississippi                               10                             0                    5               5
            Missouri                                    3                            3                    0               0
            Montana                                     6                            3                    3               0
            Nebraska                                  12                             1                    0              11
            Nevada                                      7                            4                    1               2
            New Hampshire                               5                            5                    0               0
            New Jersey                                25                             6                 15                 4
            New Mexico                                  4                            4                    0               0




    OEI-05-07-00330         A S S E S S I N G S TAT E S ’ P R O G R E S S   IN   MEETING SCHIP GOALS                           23
A   P    P E N D            I X ~              C            





        Table 6: Number of Goals by Specificity per State (Continued)

                                                                                           Type of Goal

        State                                  Total                Directional          Directional With     Nondirectional
                                            Number              Without Target                    Target
                                            of Goals
        New York                                   3                                 1                    1               1
        North Carolina                                  6                            5                    0               1
        North Dakota                                  15                             3                11                  1
        Ohio                                            5                            2                    3               0
        Oklahoma                                        3                            1                    1               1
        Oregon                                          8                            4                    0               4
        Pennsylvania                                  10                             2                    0               8
        Rhode Island                                    1                            1                    0               0
        South Carolina                                  7                            5                    1               1
        South Dakota                                    9                            7                    0               2
        Texas                                           6                            0                    0               6
        Utah                                            8                            0                    5               3
        Vermont                                         1                            0                    1               0
        Virginia                                        8                            6                    2               0
        Washington                                      5                            4                    0               1
        West Virginia                                   6                            0                    1               5
        Wisconsin                                       9                            7                    0               2
        Wyoming                                         9                            0                    6               3
        Total                                       348                            133                100               115
        Source: OIG Analysis of States’ 2006 Annual Reports, 2007.




OEI-05-07-00330            A S S E S S I N G S TAT E S ’ P R O G R E S S   IN   MEETING SCHIP GOALS                            24
Δ   A P P E N D I X                                ~              D




OEI-05-07-00330   A S S E S S I N G S TAT E S ’ P R O G R E S S   IN   MEETING SCHIP GOALS   25
A   P   P E N D       I X            ~           D




    OEI-05-07-00330   A S S E S S I N G S TAT E S ’ P R O G R E S S   IN   MEETING SCHIP GOALS   26
A   P   P E N D       I X            ~           D




    OEI-05-07-00330   A S S E S S I N G S TAT E S ’ P R O G R E S S   IN   MEETING SCHIP GOALS   27
A   P   P E N D       I X            ~           D




    OEI-05-07-00330   A S S E S S I N G S TAT E S ’ P R O G R E S S   IN   MEETING SCHIP GOALS   28
A   P   P E N D       I X            ~           D




    OEI-05-07-00330   A S S E S S I N G S TAT E S ’ P R O G R E S S   IN   MEETING SCHIP GOALS   29
A   P   P E N D       I X            ~           A
Δ       A C K N O W L E D G M
                            E M
                              E N
                                E N
                                  T ST S

                      This report was prepared under the direction of Ann Maxwell, Regional
                      Inspector General for Evaluation and Inspections in the Chicago
                      regional office, and Thomas Komaniecki, Deputy Regional Inspector
                      General.

                      Anne Bracken led this study and Tamara Perry served as the lead
                      analyst. Other principal Office of Evaluation and Inspections staff from
                      the Chicago regional office who contributed to this report include Beth
                      McDowell; central office staff who contributed include Kevin Farber and
                      Alan Levine.




    OEI-05-07-00330   A S S E S S I N G S TAT E S ’ P R O G R E S S   IN   MEETING SCHIP GOALS   30
